Audit Report




OIG-09-012
Audit of the Financial Management Service’s Fiscal Years 2008
and 2007 Schedules of Non-Entity Assets, Non-Entity Costs and
Custodial Revenue
November 24, 2008




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GEN E RAL
                                                 November 24, 2008


             MEMORANDUM FOR JUDITH R. TILLMAN, COMMISSIONER
                            FINANCIAL MANAGEMENT SERVICE

             FROM:                     Michael Fitzgerald /s/
                                       Director, Financial Audits

             SUBJECT:                  Audit of the Financial Management Service’s
                                       Fiscal Years 2008 and 2007 Schedules of Non-Entity Assets,
                                       Non-Entity Costs and Custodial Revenue

             I am pleased to transmit the attached audited Financial Management Service’s (FMS)
             Fiscal Years (FY) 2008 and 2007 Schedules of Non-Entity Assets, Non-Entity Costs
             and Custodial Revenue (the Schedules). Under a contract monitored by the Office of
             Inspector General, KPMG LLP, an independent certified public accounting firm,
             performed an audit of the Schedule of Non-Entity Assets, Non-Entity Costs and
             Custodial Revenue for Fiscal Year 2008. The Schedule for FY 2007 was audited by
             Clifton Gunderson LLP, another independent certified public accounting firm, whose
             report dated November 8, 2007, expressed an unqualified opinion. Both contracts
             required that the audit be performed in accordance with generally accepted
             government auditing standards; applicable provisions of Office of Management and
             Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
             Statements; and the GAO/PCIE Financial Audit Manual.

             The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                      •   Independent Auditors’ Report;
                      •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                          and
                      •   Independent Auditors’ Report on Compliance and Other Matters.

             In its audit of FMS’s Schedules, KPMG LLP found:

                      •   that the Schedule presents fairly, in all material respects, the Non-Entity
                          Assets as of September 30, 2008, and Non-Entity Costs and Custodial
                          Revenue for the year then ended, in conformity with U.S. generally
                          accepted accounting principles,
Page 2


        •   a significant deficiency 1 in internal control over financial reporting related
            to estimating Receivable on Deposit of Earnings, Federal Reserve, that was
            not considered a material weakness, and
        •   no instances of reportable noncompliance with laws and regulations tested.

KPMG LLP will also issue a management letter dated November 17, 2008,
discussing certain matters involving internal control and other operational matters
that were identified during the audit, but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit in accordance with generally accepted government auditing standards, was
not intended to enable us to express, and we do not express, an opinion on FMS’s
Schedules or conclusions about the effectiveness of internal control or compliance
with laws and regulations. KPMG LLP is responsible for the attached auditors’
reports dated November 17, 2008 and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:     Kenneth Carfine
        Fiscal Assistant Secretary




1
  A significant deficiency is a control deficiency, or combination of control deficiencies, that adversely
affects FMS’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the schedule that is more than inconsequential will not be prevented
or detected.
      U.S. DEPARTMENT OF THE TREASURY
      FINANCIAL MANAGEMENT SERVICE

Independent Auditors’ Reports and Schedules of Non-Entity
     Assets, Non-Entity Costs and Custodial Revenue

              September 30, 2008 and 2007
                                U.S. DEPARTMENT OF THE TREASURY
                                 FINANCIAL MANAGEMENT SERVICE




                                             Table of Contents



                                                                         Page

Independent Auditors’ Report                                               1

Independent Auditors’ Report on Internal Control                           2

Independent Auditors’ Report on Compliance and Other Matters               5

Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue     6

Notes to Schedules                                                         7

Attachment – Management’s Response                                        17
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                        Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the accompanying Schedule of Non-Entity Assets as of September 30, 2008 and Non-
Entity Costs and Custodial Revenue (collectively, Treasury Managed Accounts (TMA)) for the year then
ended (hereinafter referred to as the “Schedule”) of the U.S. Department of the Treasury’s Financial
Management Service (FMS). This Schedule is the responsibility of FMS management. Our responsibility is
to express an opinion on this Schedule based on our audit. The accompanying Schedule as of and for the
year ending September 30, 2007 was audited by other auditors whose reports thereon dated November 8,
2007, expressed an unqualified opinion on that Schedule.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedule is free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
FMS’s internal control over financial reporting relating to TMA. Accordingly, we express no such opinion.
An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedule, assessing the accounting principles used and significant estimates made by management, as well
as evaluating the overall Schedule presentation. We believe that our audit provides a reasonable basis for
our opinion.

In our opinion, the Schedule referred to above presents fairly, in all material respects, the Non-Entity
Assets as of September 30, 2008, and Non-Entity Costs and Custodial Revenue for the year then ended, in
conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated November 17,
2008, on our consideration of FMS’s internal control over financial reporting relating to TMA and our tests
of its compliance with certain provisions of laws and regulations relating to TMA. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide opinions on the internal control over financial reporting or
on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audit.




November 17, 2008




                                                                      1
                                    KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                    a member of KPMG International, a Swiss cooperative.
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the Schedule of Non-Entity Assets as of September 30, 2008 and Non-Entity Costs and
Custodial Revenue (collectively, Treasury Managed Accounts (TMA)) for the year then ended (hereinafter
referred to as the “Schedule”) of the U.S. Department of the Treasury’s Financial Management Service
(FMS) , and have issued our report thereon dated November 17, 2008. The Schedule as of and for the year
ending September 30, 2007 was audited by other auditors whose report thereon dated November 8, 2007,
expressed an unqualified opinion on that Schedule.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedule is free of material misstatement.

The management of FMS is responsible for establishing and maintaining effective internal control relating
to TMA. In planning and performing our fiscal year 2008 audit, we considered FMS’s internal control over
financial reporting relating to TMA by obtaining an understanding of the design effectiveness of FMS’s
internal control relating to TMA, determining whether internal controls relating to TMA had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the Schedule. To achieve this purpose, we did not
test all internal controls relating to TMA relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
effectiveness of FMS’s internal control over financial reporting relating to TMA. Accordingly, we do not
express an opinion on the effectiveness of FMS’s internal control over financial reporting relating to TMA.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting relating to TMA that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects FMS’s ability to initiate, authorize, record, process, or report financial data relating
to TMA reliably in accordance with U.S. generally accepted accounting principles such that there is more
than a remote likelihood that a misstatement of the Schedule that is more than inconsequential will not be
prevented or detected by FMS’s internal control relating to TMA. A material weakness is a significant
deficiency, or combination of significant deficiencies, that results in more than a remote likelihood that a
material misstatement of the Schedule will not be prevented or detected by FMS’s internal control relating
to TMA.

In our fiscal year 2008 audit, we consider the deficiency, described in Exhibit I, to be a significant
deficiency in internal control over financial reporting relating to TMA. However, we believe the
significant deficiency described in Exhibit I is not a material weakness.

                                                                         2
                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
We noted certain matters involving internal control and other operational matters relating to TMA that we
will report to management of FMS in a separate letter dated November 17, 2008.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 17, 2008




                                                   3
                                                                                                   Exhibit I



                                   U.S. Department of the Treasury
                                    Financial Management Service


              Significant Deficiency in Internal Control over Financial Reporting


Overstatement of Receivable on Deposit of Earnings, Federal Reserve System


The Receivable on Deposit of Earnings, Federal Reserve System, represents the earnings due to but not
collected by the U.S. Treasury as of September 30 2008. Each month, the receivable is calculated and
entered into the general ledger on the last day of the month. During our testing over the collectibility of
Accounts Receivable on Deposit Earnings, Federal Reserve System as of September 30, 2008, we noted
that $1,896,233,694 was recorded as of September 30, 2008. However, based on our testwork, we noted
that FMS only received subsequent cash receipts related to this receivable balance of $1,465,632,228,
therefore, the receivable was overstated in the amount of $430,601,466.

FMS does not have procedures in place to analyze the accuracy of its monthly estimates for Receivable on
Deposit of Earnings, Federal Reserve System. FMS also did not take into consideration changes in market
rates of interest that might affect their estimate of earnings to be received from the FRB when preparing its
estimate.

Per GAO’s Standards for Internal Control in the Federal Government, “Control activities occur at all
levels and functions of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of these activities as well
as appropriate documentation.” Without an analysis comparing the actual receipts to the accrued receivable
at September 30, 2008, there is an increased risk that the receivable may be misstated in the FMS TMA
Schedule.

We recommend that FMS develop and implement a quarterly analysis of its estimated Receivable on
Deposit of Earnings, Federal Reserve System, by comparing the estimated receivable to the actual
subsequent cash receipts from the FRB to determine if the estimate is reasonable and posting an adjustment
to the quarterly month end balance if necessary.

MANAGEMENT RESPONSE:

Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit FMS’s response and, accordingly, we express no opinion on it.




                                                     4
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the Schedule of Non-Entity Assets as of September 30, 2008 and Non-Entity Costs and
Custodial Revenue (collectively, Treasury Managed Accounts (TMA)) for the year then ended (hereinafter
referred to as the “Schedule”) of the U.S. Department of the Treasury’s Financial Management Service
(FMS), and have issued our report thereon dated November 17, 2008. The Schedule as of and for the year
ending September 30, 2007 was audited by other auditors whose report thereon dated November 8, 2007,
expressed an unqualified opinion on that Schedule.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedule is free of material misstatement.

The management of FMS is responsible for complying with laws and regulations applicable to the amounts
reflected in the Schedule. As part of obtaining reasonable assurance about whether the Schedule is free of
material misstatement, we performed tests of compliance with certain provisions of laws and regulations
relating to TMA, noncompliance with which could have a direct and material effect on the determination of
the amounts reflected in the Schedule, and certain provisions of other laws and regulations specified in
OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable to FMS. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 17, 2008




                                                                     5
                                   KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                   a member of KPMG International, a Swiss cooperative.
                                                     Department of the Treasury
                                                    Financial Management Service
                                                   Schedules of Non-Entity Assets
                                                  As of September 30, 2008 and 2007
                                                                     And
                                             Non-Entity Costs and Custodial Revenue
                                        For the Years Ended September 30, 2008 and 2007
                                                         (In Thousands)

                                                                                              2008           2007
Non-Entity Assets
  Intra-governmental:
     Fund Balance with Treasury (Note 2)                                               $           630,553        688,106
     Accounts Receivable, Net (Note 3)                                                             372,574        367,642
     Other                                                                                             440            325
  Total Intra-governmental                                                             $         1,003,567      1,056,073

   With the Public:
      Receivable on Deposit Earnings, Federal Reserve System                                     1,465,632      1,290,823
      Accounts Receivable, Net (Note 3)                                                             10,488         98,459
      Other                                                                                         14,168         14,161
   Total With the Public                                                               $         1,490,288      1,403,443
Total Non-Entity Assets                                                                $         2,493,855      2,459,516

Non-Entity Costs (Note 4)
   Credit Reform: Interest Paid on Uninvested Funds                                    $         5,378,162      4,632,281
   Judgments                                                                                       785,724      1,221,317
   Resolution Funding Corporation                                                                1,392,990      1,986,731
   Public Broadcasting Fund, Corporation for Public Broadcasting                                   448,476        464,350
   Legal Services Corporation                                                                      346,716        349,970
   District of Columbia                                                                            121,457        117,094
   Presidential Election Campaign Fund                                                             106,297         32,462
   Moneys Erroneously Received and Covered                                                          47,070         26,242
   Other                                                                                            39,782         33,435
Total Non-Entity Costs                                                                 $         8,666,674      8,863,882

Custodial Revenue (Note 5)
   Deposit of Earnings, Federal Reserve System                                         $        33,598,011     32,042,738
   Interest Received from Tax and Loan Depositaries                                                604,029      1,173,927
   Recoveries from Federal Agencies for Settlement of Claims from Contract Disputes                 73,599        145,201
   General Fund Proprietary Receipts, Not Otherwise Classified                                      73,163         72,399
   Fines, Penalties, and Forfeitures, Not Otherwise Classified                                         546            473
   Interest Payments from States, Cash Management Improvement                                       56,977         51,556
   Other                                                                                            23,387         24,535
   Total Cash Collections                                                                       34,429,712     33,510,829
   Accrual Adjustment                                                                              90,475         571,100
Total Custodial Revenue                                                                $        34,520,187     34,081,929

These schedules should be read only in connection with the accompanying notes to schedules.




                                                                      6
                               U.S. DEPARTMENT OF THE TREASURY
                                FINANCIAL MANAGEMENT SERVICE
                                            Notes to Schedules
                                       September 30, 2008 and 2007



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
            (Treasury). FMS’s mission is to improve the quality of government financial management.
            FMS’s commitment and responsibility is to help its customers achieve success. FMS does this
            by linking program and financial management objectives and by providing financial services,
            information, advice, and assistance to its customers. FMS serves taxpayers, Treasury, Federal
            program agencies, and government policy makers.

            Non-Entity accounts are those accounts that FMS holds but are not available to FMS in its
            operations. For example, FMS accounts for certain cash that the Federal Government collects
            and holds on behalf of the U.S. Government or other entities. However, the Schedules of
            Non-Entity Assets, Non-Entity Costs and Custodial Revenue (the Schedules) do not include
            Non-Entity Operating Cash of the Federal Government (commonly known as
            Government-wide Cash). These Schedules include the activity of Non-Entity account symbols
            managed by FMS.

            Some Non-Entity accounts receive appropriations for specific Federal programs. Some of the
            appropriations are permanent, indefinite appropriations. They are not subject to budgetary
            ceilings established by Congress. Both types of appropriations are used for payments to
            Federal program agencies and others.

            Some Non-Entity accounts receive cash collections. These types of accounts are miscellaneous
            receipt accounts. Examples of collections include interest payments, contributions, and
            collections of fines and penalties.

            The financial activities of FMS are affected by, and are dependent upon, those of U.S.
            Department of the Treasury and the Federal Government as a whole. Thus, the accompanying
            Schedules do not reflect the results of all financial decisions and activities applicable to FMS
            as if it were a stand-alone entity.

      (b)   Basis of Preparation
            The Schedules have been prepared from the accounting records maintained by FMS and are
            meant to report Non-Entity Assets, Non-Entity Costs and Custodial Revenue of FMS in
            accordance with U.S. generally accepted accounting principles. Such principles require the use
            of the accrual method of accounting to record transactions. Under the accrual method,
            revenues are recognized when earned and costs are recognized when a cost is incurred, without
            regard to receipt or payment of cash. These Schedules were prepared following accrual
            accounting.

            The standards used in the preparation of these Schedules are issued by the Federal Accounting
            Standards Advisory Board (FASAB), as the body authorized to establish generally accepted
            accounting principles for Federal government entities.

                     This information is an integral part of the accompanying schedules.

                                                     7
                        U.S. DEPARTMENT OF THE TREASURY
                         FINANCIAL MANAGEMENT SERVICE
                                      Notes to Schedules
                                 September 30, 2008 and 2007



      Balances reflected on these Schedules may differ from those on financial reports prepared by
      FMS pursuant to certain OMB directives that are primarily used to monitor and control FMS’s
      use of budgetary resources.

(c)   Use of Estimates in Preparing Schedules
      The preparation of these Schedules, in conformity with U.S. generally accepted accounting
      principles, requires management to make estimates and assumptions. These estimates affect
      the reported amounts of non-entity assets at the date of the Schedules and the amounts of
      custodial revenues and non-entity costs during the reporting period for the Schedules. Actual
      results may differ from these estimates.

(d)   Fund Balance with Treasury
      The Fund Balance with Treasury (FBWT) is an asset account that reflects the available budget
      spending authority of Federal agencies. Collections and disbursements by agencies will,
      correspondingly, increase or decrease the balance in the account.

(e)   Accounts Receivable
      Accounts receivable is comprised of Intra-governmental accounts (i.e., amounts due from other
      Federal agencies) and accounts with the Public. Accounts with the Public include amounts due
      from the Federal Reserve System. FMS records an allowance for uncollectible accounts based
      on projections of future collections (based on prior year collection trends) and the aging of
      outstanding accounts receivable at September 30.

(f)   Receivable on Deposit of Earnings, Federal Reserve System
      Reserve Banks are required by the Board of Governors of the Federal Reserve System to
      transfer to the U.S. Treasury excess earnings, after providing for the cost of operations,
      payment of dividends, and reservation of an amount necessary to equate surplus with capital
      paid in. In the event of losses, or a substantial increase in capital, a Reserve Bank will suspend
      its payments to the U.S. Treasury until such losses or increases in capital are recovered through
      subsequent earnings. Weekly payments to the U.S. Treasury may vary significantly. The
      Receivable on Deposit of Earnings, Federal Reserve System, represents the earnings due
      Treasury as of September 30, but not collected by the U.S. Treasury until after the end of the
      month.

(g)   Custodial Revenue
      Custodial revenue is initially recorded on a cash basis when amounts are deposited into receipt
      accounts. However, an adjustment is reflected on the Schedules at September 30 to accrue for
      collections in a fiscal year relating to prior year’s Non-Entity Accounts Receivable, and to
      account for other changes in the Non-Entity Accounts Receivable not resulting in a collection
      of cash in the current period (i.e., new reimbursements and changes in the allowance for
      uncollectible accounts).


               This information is an integral part of the accompanying schedules.

                                                8
                                  U.S. DEPARTMENT OF THE TREASURY
                                   FINANCIAL MANAGEMENT SERVICE
                                              Notes to Schedules
                                         September 30, 2008 and 2007



      (h)     Reclassifications
              Certain amounts in the prior year’s presentation have been reclassified to conform with the
              current year’s presentation. These reclassifications have no effect on previously reported total
              non-entity assets, total non-entity costs, or total custodial revenue.

(2)   Fund Balance with Treasury
      The Fund Balance with Treasury is funded through various sources depending on the specific
      legislative authority and purpose, and may be used only for specific purposes. Such amounts may be
      in escrow or other special accounts. These accounts are primarily funded through appropriations,
      collections, tax receipts, gifts to the Government, and settlements from foreign countries.

      Obligated balances are funds against which budgetary obligations have been incurred, but
      disbursements have not been made. The Unobligated Available balance is the amount of funds
      available to FMS against which no claims have been recorded. The Unobligated Unavailable balance
      is the amount of unobligated funds remaining from appropriations that have expired, appropriations
      that have not been apportioned, authority that is not available pursuant to public law, and the amount
      of funds in deposit funds, clearing accounts and receipt accounts. Fund Balance with Treasury as of
      September 30, 2008 and 2007 consisted of the following (amounts in thousands):

                                                                           2008
                                                            Unobligated           Unobligated
      Account Type                      Obligated             Available           Unavailable       Total

      Appropriated Funds                    $97,505            $116,801                   $ 2       $214,308

      Revolving Funds                            411               3,988                       -        4,399

      Trust Funds                                 43                 (4)                   -                39

      Other Fund Types                              -                  -              411,807        411,807

      Total                                 $97,959            $120,785              $411,809       $630,553




                       This information is an integral part of the accompanying schedules.

                                                        9
                               U.S. DEPARTMENT OF THE TREASURY
                                FINANCIAL MANAGEMENT SERVICE
                                             Notes to Schedules
                                        September 30, 2008 and 2007



                                                                          2007
                                                            Unobligated          Unobligated
      Account Type                     Obligated              Available          Unavailable      Total

      Appropriated Funds                  $126,586             $164,844             $ 15,843      $307,273

      Revolving Funds                           159               7,050                     -         7,209

      Trust Funds                                39                  45                  16               100

      Other Fund Types                             -                  -              373,524       373,524

      Total                               $126,784             $171,939             $389,383      $688,106



      The fund balance, unobligated available supports the budgetary resources available except for $310
      thousand in 2008 and 2007, which is invested. The fund balance, unobligated unavailable for
      appropriated funds supports the budgetary resources not available. The fund balance, unobligated
      unavailable for other fund types, includes only deposit funds and suspense accounts which do not
      have a budgetary impact.

(3)   Accounts Receivable, Net
      (a)     Intra-governmental Accounts Receivable, Net
              Intra-governmental accounts receivable principally includes amounts for which Federal
              agencies are required to reimburse the Treasury’s Judgment Fund for settlements paid or
              accrued on their behalf for contract disputes (pursuant to the Contract Disputes Act) and No
              FEAR Act. While the Contract Disputes Act (CDA) and No FEAR Act (No FEAR) require
              Federal Agencies to reimburse the Judgment Fund for payments, CDA and No FEAR do not
              authorize FMS collection action against those Agencies. FMS has historically had difficulty in
              collecting amounts owed to them under the CDA, so an allowance for uncollectible accounts
              has been established to recognize losses on receivables that may not be collected under this
              Program. The activity in the allowance account each year is reflected in the “Accrual
              Adjustment” line in the custodial revenue section of the Schedules.




                      This information is an integral part of the accompanying schedules.

                                                       10
                       U.S. DEPARTMENT OF THE TREASURY
                        FINANCIAL MANAGEMENT SERVICE
                                     Notes to Schedules
                                September 30, 2008 and 2007



      Intra-governmental accounts receivable, net as of September 30, 2008 and 2007 consist of the
      following (amounts in thousands):

                                                                        2008                 2007

       Claims for Contract Disputes and Fire Fighting                 $1,128,138            $1,094,038
       Claims for No Fear Act                                              4,436                 3,604
       Less: Allowance for Uncollectible Accounts                      (760,000)              (730,000)

       Accounts Receivable, Net                                        $ 372,574            $ 367,642



(b)   Accounts Receivable with the Public, Net
      Accounts Receivable with the Public, net, exclusive of amounts due from the Federal Reserve
      System, as of September 30, 2008 and 2007 consist of the following (amounts in thousands):

                                                                             2008              2007

         U.S. Treasury Check Forgery Insurance Fund Receivables                 $2,731          $1,078
         Interest Received from Tax and Loan Depositaries                        8,715          97,981
         Interest Payments from States                                              25              25
         Gross Accounts Receivable                                              11,471          99,084

         Less: Allowance for Uncollectible Accounts                                 (983)        (625)

         Accounts Receivable, Net                                              $10,488         $98,459


      The U.S. Treasury Check Forgery Insurance Fund was established to expedite payments on
      claims and provide a dependable source of funds to meet the Federal Government’s
      responsibility for the payment of settlement checks issued to replace checks paid over forged
      endorsements. The receivable represents the amount due from banks that cashed the forged
      checks.

      The receivable for Interest Received from Tax and Loan Depositaries represents interest
      accrued and owed to the Treasury, from the depositaries participating in the Investment
      Programs, for the interest earned on Treasury Tax and Loan funds. The Treasury Tax and Loan
      (TT&L) program invests funds collected by the Federal Government in short-term loans to
      commercial financial institutions. These funds can be withdrawn on demand to meet the
      Federal Government’s immediate cash requirements.




              This information is an integral part of the accompanying schedules.

                                              11
                              U.S. DEPARTMENT OF THE TREASURY
                               FINANCIAL MANAGEMENT SERVICE
                                            Notes to Schedules
                                       September 30, 2008 and 2007



(4)   Non-Entity Costs
      Non-Entity Costs represent payments made on behalf of the Federal Government through various
      Treasury Managed Accounts (TMA) described below. In addition, Non-Entity Costs also include
      accruals for which FMS has made a commitment to make a payment for claims existing as of
      September 30, 2008 and 2007.

      Credit Reform: Interest Paid on Uninvested Funds – Direct loan and loan guarantee financing
      accounts receive various payments, repayments and fees, and make payments on defaults. When
      cash receipts exceed outlays or when an agency does not disburse all of its borrowings, these
      balances are held in the Treasury and earn interest. The interest earned on these balances is disbursed
      by FMS to the agency.

      Judgments – FMS processes payments from the Judgment Fund for certain judicially and
      administratively ordered monetary awards against the United States, as well as amounts owed under
      compromise agreements negotiated by the United States Department of Justice in settlement of
      claims arising under actual or imminent litigation.

      Resolution Funding Corporation – The Resolution Funding Corporation (REFCORP) account is
      maintained pursuant to the Federal Home Loan Bank Act. FMS provides payments to REFCORP to
      cover the interest expenses of REFCORP.

      Public Broadcasting Fund, Corporation for Public Broadcasting – This account is used to make
      annual payments to the Corporation for Public Broadcasting pursuant to the enacted Public Law. The
      payment is used to assist and facilitate the full development of public telecommunications in which
      programs of high quality, diversity, creativity, excellence, and innovations will be made available to
      public telecommunications.

      Legal Services Corporation – This account is used to pay the Legal Services Corporation through
      letter of credit drawdowns. The Legal Services Corporation distributes appropriated funds to local
      nonprofit organizations that provide free civil legal assistance, according to locally determined
      priorities, to people living in poverty. Congress chartered the corporation as a private, non-profit
      entity outside of the Federal Government.

      District of Columbia – Payments to the District of Columbia cover certain operations of the District
      of Columbia. It includes payments for a program of management reform, for the administration and
      operation of correctional facilities, and for construction and repair of the District’s infrastructure.

      Presidential Election Campaign Fund – The Presidential Election Campaign Fund (PECF) is
      maintained in accordance with Internal Revenue Code. The purpose of the PECF is to defray the
      qualified campaign expenses which were incurred by eligible presidential candidates or nominating
      conventions. The PECF is a special fund financed through the collections of the $3 check off option
      selected by taxpayers. These amounts are collected by the Internal Revenue Service and deposited
      into the PECF.


                     This information is an integral part of the accompanying schedules.

                                                     12
                        U.S. DEPARTMENT OF THE TREASURY
                         FINANCIAL MANAGEMENT SERVICE
                                      Notes to Schedules
                                 September 30, 2008 and 2007



The PECF is broken down into the following accounts: Presidential Primary Matching Payment
Account; Presidential Nominating Convention Account; and Presidential and Vice Presidential
Nominee Account (General Election). Each account is funded in accordance with budget estimates
provided by the Federal Election Commission (FEC). Payments from the PECF are made to
qualified recipients upon certification from the FEC.

Moneys Erroneously Received and Covered – This account is used for expenditures made for
collections or other receipts erroneously deposited into Treasury. Collections represent receipts that
were not properly chargeable to any other appropriation.

Other – Other Non-Entity costs include the following payments: Payments to the States, Payments
to Agencies for Interest on Uninvested Funds, Payment to the Institute of American Indian and
Alaskan Native Culture and Arts Development, Payments from the U.S. Treasury Check Forgery
Insurance Fund, Payments to Individuals under Private and Public Relief Laws, and Payments from
Biomass Energy Development.




               This information is an integral part of the accompanying schedules.

                                               13
                                U.S. DEPARTMENT OF THE TREASURY
                                 FINANCIAL MANAGEMENT SERVICE
                                            Notes to Schedules
                                       September 30, 2008 and 2007



(5)   Collections of Custodial Revenue
      FMS collects Custodial Revenue that is not related to its mission and distributes the full amount
      collected to the Treasury General Fund. For the years ended September 30, 2008 and 2007, cash
      collections were as follows (amounts in thousands):

                                                                             2008
                                                     October to           January to
                                                     December             September
                                                       2007                  2008                Total

 Deposit of Earnings, Federal Reserve System          $ 7,719,201         $25,878,810          $33,598,011
 Interest Received from Tax and Loan                      256,268             347,761              604,029
    Depositaries
 Recoveries from Federal Agencies for                        6,673              66,926               73,599
    Settlement of Claims from Contract
    Disputes
 General Fund Proprietary Receipts                         21,879              51,284               73,163
 Fines, Penalties, and Forfeitures                            106                 440                  546
 Interest Payments from States                                  -              56,977               56,977
 Other                                                      2,790              20,597               23,387
 Total                                                $ 8,006,917         $26,422,795          $34,429,712


                                                                            2007
                                                    October to           January to
                                                    December             September
                                                      2006                  2007                Total

Deposit of Earnings, Federal Reserve System          $ 5,787,507         $ 26,255,231        $ 32,042,738
Interest Received from Tax and Loan                      269,310              904,617           1,173,927
   Depositaries
Recoveries from Federal Agencies for                       17,831             127,370             145,201
   Settlement of Claims from Contract
   Disputes
General Fund Proprietary Receipts                           8,390               64,009              72,399
Fines, Penalties, and Forfeitures                             119                  354                 473
Interest Payments from States                                  -               51,556              51,556
Other                                                      5,920               18,615              24,535
Total                                                $ 6,089,077          $27,421,752         $33,510,829




                     This information is an integral part of the accompanying schedules.

                                                     14
                               U.S. DEPARTMENT OF THE TREASURY
                                FINANCIAL MANAGEMENT SERVICE
                                             Notes to Schedules
                                        September 30, 2008 and 2007



(6)   Contingencies
      A contingency is an existing condition, situation or set of circumstances involving uncertainty as to
      possible payment by FMS. The uncertainty will ultimately be resolved when one or more future
      events occur or fail to occur. For pending, threatened or unasserted litigation, a liability/cost is
      recognized when a past transaction or event has occurred, a future outflow or other sacrifice of
      resources is probable, and the related future outflow or sacrifice of resources can be reasonably
      estimated.

      There are numerous legal actions pending against the United States in Federal courts in which claims
      have been asserted that may be based on action taken by FMS. Management intends to vigorously
      contest all such claims. Management believes, based on information provided by legal counsel, that
      losses, if any, for the majority of these cases would not have a material impact on the Schedules.
      There are other cases that could result in significant payouts; however, legal counsel is unable to
      determine the probability of an unfavorable outcome, or determine an estimate or range of potential
      loss, for these matters, if any. No loss accrual has been made for these cases outstanding at
      September 30, 2008 or 2007. Below are examples of two such cases:

            Cobell et al. v. Kempthorne et al. (formerly Cobell v. Norton)
            Native Americans allege that the Department of Interior and the Treasury Department have
            breached trust obligations with respect to the management of the plaintiffs' individual Indian
            monies. On August 7, 2008, a Federal District Court issued an opinion awarding $455 million
            to the plaintiffs. The opinion is not a final order, and both parties have petitioned for the right
            to appeal. The Department of the Interior is also a defendant in this case and has reported this
            case in their financial statements.

            Tribal Trust Fund Cases
            Numerous cases have been filed in which Native American Tribes seek a declaration that the
            U.S. has not provided the tribes with a full and complete accounting of their trust funds, and
            seek an order requiring the government to provide such an accounting. In addition, there are a
            number of other related cases for damages which do not name the Treasury Department as a
            defendant. It is not possible at this time to determine the likelihood of an unfavorable outcome
            or an estimate of the amount or range of any potential loss. The Department of the Interior is
            also a defendant in these cases and has reported these cases in their financial statements.

      In addition, FMS manages several accounts that may be used for the payment of claims against other
      Federal Agencies. Such payments are reflected in the following Non-Entity cost accounts reflected in
      the Schedules: Judgments and Moneys Erroneously Received and Covered. At September 30, 2008
      and 2007, such claims are in various stages of settlement.




                      This information is an integral part of the accompanying schedules.

                                                      15
                       U.S. DEPARTMENT OF THE TREASURY
                        FINANCIAL MANAGEMENT SERVICE
                                     Notes to Schedules
                                September 30, 2008 and 2007



Pursuant to the provisions of the Federal Accounting Standards Advisory Board (FASAB)
Interpretation No. 2, “Accounting for Treasury Judgment Fund Transactions,” claim amounts will be
reflected in the Schedules upon completion of certain judicial procedures and the Federal agency’s
request for payment of these claims from the Judgment Fund. At September 30, 2008 and 2007,
$40 million and $46 million, respectively, has been accrued and reflected in the appropriate line
items in the Schedules for the estimated future expenditure expected to satisfy these claims.




              This information is an integral part of the accompanying schedules.

                                              16
ATTACHMENT




    17
